OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/TANZANIA’S
COMPLIANCE WITH
FINANCIAL AUDIT
REQUIREMENTS REGARDING
FOREIGN RECIPIENTS
AUDIT REPORT NO. 4-621-06-010-P
July 31, 2006




PRETORIA, SOUTH AFRICA
Office of Inspector General




July 31, 2006


MEMORANDUM


TO:                  USAID/Tanzania, Mission Director, Pamela White

FROM:                Acting Regional Inspector General/Pretoria, Matthew Rathgeber /s/

SUBJECT:             Audit of USAID/Tanzania’s Compliance with Financial Audit
                     Requirements Regarding Foreign Recipients
                     (Report No. 4-621-06-010-P)

This memorandum transmits our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II.

The report has two recommendations to help USAID/Tanzania improve its financial audit
program with regard to foreign recipients. In response to the draft report, the Mission
agreed with both recommendations. However, management decision was not reached
for either of the recommendations. Please advise my office within 30 days of the actions
you have planned or taken to implement the recommendations in this report.

I appreciate the cooperation and courtesy extended to my staff throughout the audit.




U.S. Agency for International Development
100 Totius Street
Groenkloof X5
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objectives ................................................................................................................ 3

Audit Findings ................................................................................................................. 4

Did USAID/Tanzania ensure that planned financial
audits of foreign recipients were performed and submitted
in accordance with USAID rules and regulations? ............................................................ 4

     Audit Reports Not Submitted Within
     Required Timeframe .................................................................................................. 4

Did USAID/Tanzania ensure that annual audit plans
included all recipients from their award inventory
that required a financial audit? .......................................................................................... 6

Evaluation of Management Comments ......................................................................... 7

Appendix I – Scope and Methodology .......................................................................... 8

Appendix II – Management Comments ....................................................................... 10

Appendix III– List of Delinquent Audits as of December 31, 2005 ........................... 12
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria performed this audit to determine whether
USAID/Tanzania effectively managed its financial audit program in accordance with
USAID policies and procedures for fiscal years 2003, 2004, and 2005. (See page 3.)

USAID/Tanzania did not effectively manage its financial audit program during the period
covered by the audit. Specifically, USAID/Tanzania did not ensure that planned audits
of foreign recipients were performed in a timely manner or that delinquent audits were
followed up on and completed. To help correct and strengthen these problem areas, we
recommended that USAID/Tanzania 1) develop and implement an audit tracking system
to better monitor and ensure timely submission of planned audits, and 2) complete all
identified delinquent audits. (See pages 4 – 6.)

USAID/Tanzania did ensure that foreign recipients requiring financial audits were
included in its annual audit plans. The Mission prepared and submitted its annual audit
plans for fiscal years 2003-2005 as required. Most of the Mission’s recipients were U.S.-
based organizations and were audited under the requirements of the Office of
Management and Budget’s Circular A-133. (See page 6.)

The Mission agreed with the recommendations. For Recommendation No. 1 the Mission
provided a copy of its audit tracking system. However, the audit tracking system does
not include the four controls described in Recommendation No. 1. For Recommendation
No. 2, the Mission did not provide a sufficient action plan and target completion date.
Therefore, a management decision was not reached for either recommendation.
(See page 7.)




                                                                                       1
BACKGROUND
USAID administers most of its foreign assistance programs by awarding contracts,
grants and cooperative agreements to U.S.-based and foreign organizations. In order to
help ensure accountability over funds given to such organizations, USAID and the Office
of Inspector General (OIG) have jointly developed a financial audit program as outlined
in Automated Directives System (ADS) 591. This section of the ADS requires that
USAID missions, in consultation with the cognizant Regional Inspector General (RIG),
ensure that required financial audits are conducted for foreign for-profit and nonprofit
organizations and host government entities (including any Mission-funded activities in
nonpresence countries), and local currency special accounts.

All foreign nonprofit organizations expending more than $300,000 of USAID funds during
their fiscal year are required to have an annual financial audit performed. A closeout
audit is required for recipients expending more than $500,000 throughout the life of an
award. Incurred cost audits must be performed annually of all foreign for-profit
organizations performing under direct awards or cost reimbursable host country
contracts and subcontracts. 1 To ensure that such audits are performed in a timely and
acceptable manner, Missions are required to develop annual audit plans which are
populated from inventories maintained by the Missions of all contracts, grants and
cooperative agreements, including cash transfer and nonproject assistance grants,
awards financed with host country owned local currency and activities in nonpresence
countries for use in determining audit requirements.

The audits are normally performed by independent auditors acceptable to the cognizant
RIG office. The audit agreements between recipients and independent auditors contain
a standard statement of work. On occasion, USAID missions may contract directly with
an audit firm to conduct financial audits of foreign recipients or locally-incurred costs of
U.S.-based recipients. Audits of USAID recipients are required to be performed in
accordance with U.S. Government Auditing Standards as well as the OIG’s Guidelines
for Financial Audits Contracted by Foreign Recipients. Missions must ensure that such
audit reports are submitted to the cognizant RIG for review and issuance no later than
nine months following the end of the audited period.

USAID/Tanzania had 11 non-U.S.-based recipients in fiscal year 2005. During fiscal
years 2003-2005, the Mission reported budget authorizations totaling $112.4 million for
programs in:

     •   Family Health and HIV Prevention.
     •   Democracy and Governance.
     •   Economic Growth.
     •   Health Status.
     •   Incomes Increased.
     •   Environment and Natural Resources.

1
  In terms of a 2005 revision to ADS 591, there is no automatic requirement for annual incurred cost audits
for foreign for-profit organizations. Instead, Missions are required to annually assess risks to determine
whether financial audits are warranted and the results of these risk assessments must be shared with the
cognizant RIG office.


                                                                                                         2
    •   Public Accountability.
    •   Program Support.


AUDIT OBJECTIVES
An audit of the Mission’s compliance with financial audit requirements regarding foreign
recipients was performed because Regional Inspector General/Pretoria’s (RIG/Pretoria)
experience was that USAID missions in eastern and southern Africa have generally not
been complying with Automated Directives System (ADS) 591 in terms of ensuring that
required financial audits of foreign recipients are conducted in a timely and acceptable
manner. To determine USAID/Tanzania’s compliance with USAID rules and regulations
regarding financial audits of its foreign recipients, the audit was performed to answer the
following questions:

Objective No. 1: Did USAID/Tanzania ensure that planned financial audits of foreign
recipients were performed and submitted in accordance with USAID rules and
regulations?

Objective No. 2: Did USAID/Tanzania ensure that annual audit plans included all
recipients from their award inventory that required a financial audit?




                                                                                         3
AUDIT FINDINGS
Did USAID/Tanzania ensure that planned financial audits of
foreign recipients were performed and submitted in accordance
with USAID rules and regulations?
USAID/Tanzania did not ensure that all planned financial audits of foreign recipients 2
were performed and submitted in accordance with USAID rules and regulations.

USAID/Tanzania prepared annual audit inventories and plans as required for fiscal years
2003-2005. Since May 30, 2003, RIG/Pretoria has issued six financial audit reports of
USAID/Tanzania recipients covering $6.3 million in expenditures of USAID funds. Those
audit reports included recommendations that addressed $1.08 million in questioned
costs, 16 internal control weaknesses, and 5 instances of material noncompliance with
applicable laws and regulations.

While the above financial audit work has undoubtedly had a positive effect on
USAID/Tanzania’s accountability over USAID funds expended by foreign recipients,
there were several areas in which USAID/Tanzania could improve its recipient financial
audit program including timeliness and follow-up on delinquent audits.


Audit Reports Not Submitted
Within Required Timeframe
Summary: According to Agency regulations, USAID missions must submit audit reports
of foreign recipients to the cognizant Regional Inspector General (RIG) no later than nine
months after the end of the audited period. Only one of the nine audits planned for fiscal
years 2003-2005 was submitted to RIG/Pretoria for review on or before the required
deadline. This occurred because USAID/Tanzania had not developed a system to track
and follow up on planned audits. Audits that are not completed in a timely manner
reduce USAID’s accountability over funds awarded to recipients.

Automated Directive System (ADS) 591.3.2.1 requires that foreign nonprofit
organizations and host governments that expend $300,000 or more of USAID funds
during their fiscal year must have an annual audit conducted in accordance with the
Office of Inspector General’s Guidelines for Financial Audits Contracted by Foreign
Recipients (Guidelines). Paragraphs 1.16 and 2.3 of the Guidelines spell out the
timeframe within which recipients must submit final audit reports to the cognizant USAID
mission, which, in turn, will forward them to the RIG for review and issuance. According
to the Guidelines, the cognizant RIG must receive the audit report no later than nine
months after the end of the audited period.



2
   For the purpose of this audit, foreign recipients include non-U.S.-based grantees and
contractors who were awarded grants, contracts, cooperative agreements and implementation
letters.


                                                                                        4
USAID/Tanzania’s annual audit plans prepared for fiscal years 2003, 2004, and 2005
included nine distinct planned financial audits of seven different recipients. The
breakdown of the nine audits is presented in Table 1 below.

                                        Table 1
              Recipient Audits in Annual Plans for Fiscal Years 2003-2005

               Number of recipients         Number of annual          Totals
                                             audits in plans
                         2                           2                   4
                         5                           1                   5
                         7                                               9

Of the nine planned audits, only one (11%) was initially submitted to RIG/Pretoria for
review on or before the required deadline. On average, audit reports were submitted
174 days (approximately six months) after they were due. As of December 31, 2005, six
of USAID/Tanzania’s planned audits for fiscal years 2003-2005 were still outstanding. A
list of the awards with delinquent audits is included as Appendix III in this report.

The lack of timeliness occurred because the Mission had not developed or implemented
an effective tracking system to ensure that planned audits were performed and
submitted within the required timeframe. As a result, eight of nine planned audits were
not submitted in a timely manner.

Delayed performance and submission of audit reports reduces USAID’s accountability
over funds awarded to recipients. This also increases the risk that recipients’ financial
records are no longer available for audit, or that their offices may have ceased
operations, making the determination and recovery of potential questioned costs difficult
or impossible. Even when records do exist, or the recipient is still in operation, untimely
audit reports lose their usefulness because management (USAID or recipient) cannot,
based on the reports, implement corrective actions in a timely manner to help prevent
potential fraud, waste and abuse. Total estimated expenditures not audited on a timely
basis amounted to over $5.7 million. Of these estimated expenditures, RIG/Pretoria
received late audit reports for $2.4 million, and has not received audit reports for the
remaining $3.3 million as shown in Appendix III.

For the mission to be able to submit timely audit reports to RIG/Pretoria, it must have a
system to monitor the status of planned audits, and to provide interventions when
targeted milestones are not being met. Therefore, we are making the following
recommendations:

   Recommendation No. 1: We recommend that USAID/Tanzania develop and
   implement an audit tracking system to monitor the recipient financial audit
   process to ensure timely submission of reports to RIG/Pretoria. This system
   should, at a minimum, include controls to ensure that:

   •   Appropriate timing targets and milestones are set for each audit in the
       Mission’s current audit plan.
   •   Audit instructions are sent to recipients prior to the recipient’s fiscal year end
       requesting them to initiate the procurement for the audit.



                                                                                            5
   •   Periodic follow-up is performed to determine the implementation status of all
       planned audits.
   •   Corrective actions are taken and documented for audits that are not
       progressing as planned.

   Recommendation No. 2: We recommend that USAID/Tanzania obtain and
   submit audit reports for all recipients with delinquent audits.


Did USAID/Tanzania ensure that annual audit plans included all
recipients from its award inventory that required a financial
audit?
USAID/Tanzania did ensure that annual audit plans included all recipients from its award
inventories that required a financial audit.

As required by ADS 591.3.4.2, USAID/Tanzania developed award inventories for fiscal
years 2003, 2004, and 2005 which included the required information for each award,
such as contractor/grantee name, type of organization, award number, amount in U.S.
dollars, start/completion dates, prior audits and period covered, receipt date for required
audits, dates for planned audits, and reason(s) for not including an award in the annual
audit plan. The Mission also developed an annual plan for each of those fiscal years
which included nine distinct audits of foreign recipients receiving awards listed in those
inventories.

USAID/Tanzania prepared the award inventories and related audit plans as required and
all awards that required audits were included in the audit plans. Mission Order No. 9-15
was comprehensive in its scope of audit policies and procedures except that it did not
include policies and procedures regarding closeout audits.

Closeout audits are important tools in the control and accountability of USAID funds.
Such audits may be used, among other things, to finalize indirect cost rates and to
determine whether the disposition of USAID-funded assets was properly performed at
the end of a project or activity. A closeout audit of expenditures of USAID funds would
be especially important when a recipient may have expended less than $300,000 in any
single year, but the total award was over $500,000. Such recipients may never have
been subjected to a USAID audit as required. Further, according to ADS 591.3.3.2,
Contract/Grant Officers cannot proceed with the closeout process until final action has
been taken on all audit recommendations.

To help ensure that all awards requiring financial and/or closeout audits are considered
in the Mission’s audit plans, we suggest USAID/Tanzania amend Mission Order No. 9-15
to include procedures for closeout audits.




                                                                                         6
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Tanzania concurred with both recommendations.

In concurring with Recommendation No. 1, the Mission presented an audit tracking
system that is already in use. However, the audit tracking system does not include the four
controls described in Recommendation No.1. As a result, management decision has not
been reached.

In concurring with Recommendation No. 2, the Mission indicated that there are two
delinquent audit reports in draft form and that the Mission will ensure the audit reports
are finalized and submitted to RIG/Pretoria. The Mission needs to reconcile these
delinquent audits with the six delinquent audits listed in Appendix III of this report.
Management decision will be reached when the Mission provides an action plan and
target completion dates for submitting the six listed delinquent audit reports to
RIG/Pretoria.




                                                                                         7
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria performed this audit in accordance with
generally accepted government auditing standards. The audit was performed at the
Regional Inspector General in Pretoria, South Africa. The audit notification was sent on
December 20, 2005 and the audit was performed from March 24 to May 2, 2006.

The audit covered financial audit requirements for USAID/Tanzania’s awards to non-
U.S.-based recipients during fiscal years 2003, 2004, and 2005.

The type of evidence examined during the audit included, but was not limited to, award
inventories for fiscal years 2004-2005 and audit plans submitted by the Mission for fiscal
years 2003-2005, RIG/Pretoria’s Audit Management Database and archives, and
correspondence from the Mission.

For the most part, we relied on the accuracy and completeness of the award inventories
that were submitted by the Mission to RIG/Pretoria because we believe that the
responsibility for preparing award inventories rests with the Mission’s Audit Management
Officer, who should have the technical capacity to prepare reliable award inventories.
The primary focus of our audit was the development and execution of the annual audit
plans from those award inventories. Thus, with few exceptions, we limited our
procedures to determine whether data in the award inventories were properly used to
develop the audit plans and whether those audit plans were executed in an acceptable
and timely manner. We recognize the limitations of our reliance on the accuracy and
completeness of the award inventories, and hereby disclose this in the audit report--the
primary limitation being that all awards requiring a financial audit may not have been
included in the Mission’s award inventories. Further, expiration dates and total amounts
of awards in inventories may not have been accurate.

With regard to internal control, we assessed:

•   Award inventories.
•   Audit plans.
•   Mission orders regarding financial audits.


Methodology
To accomplish the audit objectives, we reviewed and analyzed the annual audit plans
and award inventories submitted to RIG/Pretoria for fiscal years 2003, 2004 and 2005 for
USAID/Tanzania. We compared audit reports actually submitted to RIG/Pretoria to
planned audits listed in the Mission’s audit plans in order to determine the timeliness of
the submission. We compared the audit plans to the award inventories to determine the
accuracy of the audit plans. To determine recipients requiring closeout audits, we
reviewed the Mission’s award inventories and selected awards above $500,000 that
were not subject to an annual audit in the eleven-month period prior to the program



                                                                                        8
                                                                            APPENDIX I


completion date. The audit also included a review of correspondence between
RIG/Pretoria and the Mission regarding award inventories and annual audit plans. We
also requested additional information from the Mission when required.

For materiality thresholds, we considered the following to be material:

•   Timeliness of submission of audit reports - if the number of acceptable audit reports
    submitted after the nine-month due date was greater than 10 percent of the number
    of planned audits, we considered the lack of timeliness to be material..

•   Delinquent audit reports – any number of delinquent planned audit reports was
    considered to be material.

•   Completeness and accuracy of audit plans – any number of required audits not
    included in the audit plans was considered to be material.

This was one of a total of nine similar audits that we are performing of USAID missions
within the eastern and southern Africa region. As RIG/Pretoria already possesses most
of the information needed to conduct the audits, we did not consider travel to the
locations of the respective missions to be necessary. Any questions regarding audit
procedures or preliminary results were handled via email or telephone.




                                                                                       9
                                                                                APPENDIX II



MANAGEMENT COMMENTS

                U.S. Agency For International Development
                                                     memorandum

         DATE:                 June 1, 2006

       REPLY TO
       ATTN OF:                Pamela White, Mission Director

       SUBJECT:                Audit of USAID/Tanzania’s Compliance with Financial
                               Audit Requirements Regarding Foreign Recipients
                               (Report No. 4-621-06-xxx-P)

               TO:             Jay Rollins, Regional Inspector General/Pretoria

             REF:              RIG’s memorandum dated May 15, 2006

Please find herewith USAID/Tanzania’s comments on recommendations No. 1 and 2 of
the subject audit report.

Recommendation No. 1 states “We recommend that USAID/Tanzania develop and
implement an audit tracking system to monitor the recipient financial audit process to
ensure timely submission of reports to RIG/Pretoria. This system should, at a minimum,
include controls to ensure that:
■ appropriate timing targets and milestones are set for each audit in the Mission’s current
audit plan;
■ audit instructions are sent to recipients prior to the recipient’s fiscal year end requesting
them to initiate the procurement for the audit;
■ periodic follow-up is performed to determine the implementation status of all planned
audits; and
■ corrective actions are taken and documented for audits that are not progressing as
planned”.

 Mission comments: The Mission concurs with this recommendation. The Mission is
already using an audit tracking report (see attached) that incorporates the above
mentioned features. It is one of the primary reasons that the number of days overdue on
audit reports has significantly decreased during the past several years. However, even


                                                                                            10
                                                                            APPENDIX II


with this tool and significant management effort, not all audit reports will be submitted
within the prescribed time frame. For example, auditees that no longer receive funding
can be uncooperative in preparing required Fund Accountability Statements, thus
delaying the audit report. Or the audit review process between the auditor and RIG can,
for whatever reason, take in an inordinate amount of time. Both of these cases are out of
the Mission’s control and currently account for all of our past due audits.

Recommendation No. 2 states “We recommend that USAID/Tanzania obtain and submit
all delinquent audit reports to RIG/Pretoria”.


Mission comments: The Mission concurs with this recommendation. Currently the
Mission has two delinquent audit reports i.e. HealthScope Tanzania and Deloitte
&Touche. The draft review process is still between RIG/Pretoria and the recipients. The
Mission is following up to ensure that the audit reports are finalized and submitted to
RIG/Pretoria once the review process is completed.




                                                                                       11
                                                                               APPENDIX III



    LIST OF DELINQUENT AUDITS
     AS OF DECEMBER 31, 2005

                                                                                  No. of Days
                                 Recipient’s   Total Amount      Estimated       Between Audit
                                 Fiscal Year     of Award          Annual         Report Due
                                     End         (in US $)      Expenditures       Date and
             Award Number 3                                      (in US $) 4       12/31/05

    1   623-C-00-03-00004-00     12/31/2004       1,625,190           825,842         91
    2   623-C-00-03-000430-00    12/31/2004       1,400,013           400,000         91
    3   PIL6210173.00-51         12/31/2002         437,064           219,842        822
    4   PROAG6210166              1/31/2003         974,125           974,125        791
    5   PROAG621-G-88-02          6/30/2003      41,366,677           149,493        639
    6   PIL6210173.00-47         12/31/2002         750,000           709,050        822

        Totals                                   46,553,069         3,278,352




3
  ADS 591.3.2.1 requires a foreign recipient to have a single audit performed when it has
expended over $300,000 of USAID funds. This audit should include all awards from which those
funds were disbursed during the period audited. USAID/Tanzania had recipients with several
awards.
4
  The Mission’s audit plans for fiscal years 2003-2005 provided the estimated annual
expenditures.


                                                                                           12
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
